OIG Audit Report GR-50-09-002

Office of Justice Programs National Institute of Justice Cooperative Agreements Awarded to the Missouri State Highway Patrol, Jefferson City, Missouri
Audit Report GR-50-09-002
February 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has  completed an audit of Convicted Offender DNA Backlog Reduction Cooperative  Agreements 2005‑DN‑BX‑K039 and 2006‑DN‑BX‑K241 totaling $521,469 awarded  by the Office of Justice Programs (OJP), National Institute of Justice (NIJ),  to the Missouri State Highway Patrol (MSHP).3  The objective of the overall cooperative  agreement program is to accelerate the analysis of convicted offender samples  collected by states in order to provide CODIS-compatible data for all  13 CODIS core Short Tandem Repeat (STR) loci for local, state, and  national DNA databases so that law enforcement is provided with critical  investigative information in a timely manner.2  All convicted offender DNA profiles obtained  with this funding are to be included in CODIS and the National DNA Index System  (NDIS).  The result of receiving Convicted offender DNA Backlog  Reduction (In-House Analysis) funding should be a demonstrated reduction in the  estimated number of convicted offender samples awaiting DNA analysis.  
        OJP  works in partnership with the justice community to identify crime-related  challenges confronting the justice system, and to provide information,  training, coordination, and strategies and approaches for addressing these  challenges.  The  NIJ is the research, development, and evaluation agency of the U.S. Department  of Justice (DOJ) and is dedicated to researching crime control and justice  issues.  In addition to sponsoring  research and development and technical assistance, the NIJ evaluates programs,  policies, and technologies.
 The  MSHP Crime Laboratory opened in May 1936.   In addition to its headquarters located in Jefferson City, Missouri,  it has six satellite laboratories located throughout the state.  Effective January 1, 2005, the State of Missouri expanded its  DNA database law by requiring collection of DNA from all felons.  This expansion increased annual DNA  submissions to the MSHP Crime Laboratory in two ways:  (1) annual submissions to the Laboratory rose  from approximately 2,200 offender samples per year to over 28,000 per  year, and (2) an additional 100,000 DNA samples now had to be collected from  prior offenders who became eligible for collection for past felonies.  Since the change in law took effect, the  database has increased in size from 27,211 convicted offender profiles to  over 100,000 convicted offender profiles.  
The purpose of this audit was to  determine whether reimbursements claimed for costs under the cooperative  agreements were allowable, supported, and in accordance with applicable laws,  regulations, guidelines, and terms and conditions of the cooperative agreements,  and to determine program performance and accomplishments.  The objective of our audit was to review  performance in the following areas:   (1) internal control environment; (2) drawdowns; (3) cooperative  agreement expenditures, including personnel and indirect costs; (4) budget  management and control; (5) matching; (6) property management;  (7) program income; (8) financial status, progress, and performance  metrics reports; (9) cooperative agreement requirements; (10) program  performance and accomplishments; and (11) monitoring of contractors and subgrantees.  We determined that indirect costs, matching,  property management, program income, and monitoring of contractors and subgrantees  were not applicable to these cooperative agreements.  As shown in the following table, the MSHP was  awarded a total of $521,469.  The MSHP  did not use the 2006 award; as a result, $254,471 was deobligated.3
CONVICTED OFFENDER DNA  BACKLOG REDUCTION PROGRAM 
  COOPERATIVE AGREEMENTS TO THE MSHP


COOPERATIVE AGREEMENT AWARD
AWARD START DATE
AWARDEND DATE
AWARD AMOUNT


2005-DN-BX-K039
10/01/2005
03/31/2007
$266,998


2006-DN-BX-K241
10/01/2006
02/29/2008
$254,471


Total:
$521,469


Source:  Office  of Justice Programs
We examined the MSHP’s accounting  records, financial and progress reports, and operating policies and procedures  and found:

The MSHP did not inform OJP of its intent to use  sole-source vendors and not use competitive bidding for all laboratory supplies  purchased.  As a result, we questioned  $249,617;
The MSHP charged  the cooperative agreement $4,543 in unallowable fringe benefits, $7,310 in  unreported positions, and $652 in unsupported overtime.  As a result, we questioned these costs.
The MSHP did not  submit required reports on time, prepare reports correctly, or provide accurate  information in its reports to OJP.

These items are  discussed in detail in the Findings and Recommendations section of the  report.  Our audit objectives, scope, and  methodology are discussed in Appendix I.


 

Footnotes

The MSHP was awarded two cooperative  agreements ($266,998 for 2005 and $254,471 for 2006).  However, OJP deobligated the 2006 funding  because the MSHP did not use any of the money. 
The Combined DNA Index System (CODIS) links  DNA evidence obtained from crime scenes, thereby identifying serial  criminals.  CODIS also compares crime  scene evidence to DNA profiles obtained from convicted offenders, thereby  providing investigators with the identity of the putative perpetrator.  In addition, CODIS contains profiles from  relatives of missing persons, unidentified human remains, and anonymous DNA  profiles for a population statistics file.   There are three levels of CODIS:   (1) the Local DNA Index System (LDIS), used by individual laboratories;  (2) the State DNA Index System (SDIS), used at the state level to serve as  a state’s DNA database containing DNA profiles from LDIS labs; and the National  DNA Index System (NDIS), managed by the FBI as the nation’s DNA database  containing all DNA profiles uploaded by participating states.
Because the 2006 award was not used and the  funds were deobligated, there was not significant activity to audit.  However, the MSHP submitted required reports  for this award prior to the deobligation.   We reviewed that reporting activity and provide the results in the  Reports section of this report.





 




Return to OIG Home Page